No.

£o-\m

In the Supreme Court of the United States

Supreme Court, U.S.
FILED

JUN 0 2 2021
OFFICE OF THE CLERK

Martin Dekom, and on behalf of the Little People
Petitioner
v.
Fannie Mae, Bank Of America N.A., Nationstar Mortgage LLC, Elisabetta
Coschignano, William Riccio, Berkman Henoch Law Firm, Bruce R. Cozzens,
Thomas A. Adams, George Peck, Ellen Brandt, Gross Polowy Law Finn, Sandelands
Eyet Law Firm, Erik Vallely, Matthew Burrows, Brian Goldberg, Laura Strauss,
Geoffrey Jacobson, Keiran Dowling, Laurence Chirch, Aprilanne Agostino, Darrell
Joseph, Randall Eng, Alan Sheinkman, Nassau County Clerk, Hans Augustin, Oscar
Prieto, 8 Motions Clerks, 2nd Department Appellate Judges, Pawns i-ioo,
Goldman Sachs, As Owner Of “Pool l”,
defendant-appellees

ON PETITION FOR A WRIT OF CERTIORARI TO THE
SECOND CIRCUIT COURT OF APPEALS
PETITION FOR A WRIT OF CERTIORARI

MARTIN DEKOM
Petitioner

9050 Sunset Drive
Navarre, FL 32566
(516)850-2717
Martin.Dekom@gmail.com

1

TABLE OF CONTENTS
Questions.

3

Parties.....

3

Decisions at issue and jurisdiction.......3
Constitutional Principles......

3

Preliminary statement..........

3

Statement of the case............

4

Reasons to grant the petition

6

The usurpation of judicial powers perverts justice............................

6

The Rooker-Feldman doctrine is not a “Get Out of Fraud Free” card.

8

Fabricated costs cannot be assigned to a losing party after the fact...

9

The Second Amendment is the last lawful defense of natural rights..

.10

Conclusion.

11

Wordcount and Certificate of Service....!!

2

Questions
Can courts alleviate their backlog by letting staffers usurp the authority ofjudges?
Is the Rooker-Feldman doctrine a safe harbor for fraud?
Can costs be levied after a mandate, and when a party admits their taxation is false?
Can courts implement shortcuts based on class without implicating the Second Amendment?
The Answer is No.
Parties
Martin Dekom, And On Behalf Of The little People, Petitioner
Fannie Mae, Bank Of America N.A., Nationstar Mortgage LLC, Elisabetta Coschignano,
William Riccio, Berkman Henoch Law Firm, Bruce R. Cozzens, Thomas A. Adams, George
Peck, Ellen Brandt, Gross Polowy Law Firm, Sandelands Eyet Law Firm, Erik Vallely,
Matthew Burrows, Brian Goldberg, Laura Strauss, Geoffrey Jacobson, Keiran Dowling,
Laurence Chirch, Aprilanne Agostino, Darrell Joseph, Randall Eng, Alan Sheinkman, Nassau
County Clerk, Hans Augustin, Oscar Prieto, 8 Motions Clerks, 2nd Department Appellate
Judges, Pawns 1-100, Goldman Sachs, As Owner Of “Pool iM, Defendants-Appellees.
Decisions at Issue and Jurisdiction
The orders of the 2nd Circuit mandating dismissal (ECF 262) entered March 4,2021, and
taxing costs (ECF 268) entered April 21,2021. This Petition For Writ of Certiorari is timely
filed within 90 days. The jurisdiction of this Court is by 28 U.S.C. § 1254.
Constitutional Principles
The Second Amendment as final guarantor of the rights to Due Process and Equal Protection.
Preliminary statement
The essence ofjustice is the equal application of established, articulated principles to all
litigants. When the courts pick and choose versions ofjustice according to their favor, there is

3

justice for none. Such a condition, left unchecked, triggers the rights inherent in the Second
Amendment.
Statement of the case
Petitioner Martin Dekom fell behind on his home mortgage in Nassau County, NY. To
circumvent the state’s notoriously lengthy foreclosure process, the local court created
“Foreclosure Inquest.” It shortened the procedure by removing all the motions required by
statute, deeming the defendant to have defaulted (not answered), and eliminating the
defendant’s statutory protections and rights. Dekom discovered that “Foreclosure Inquest”
was in aid of a nationwide racket. Specifically, Fannie Mae secretly took ownership of billions
of dollars worth of mortgages, then got paid back on those losses multiple times over, by
lenders, die federal government, and then by the homeowners. Dekom appealed the state
court foreclosure and ultimately lost. Concurrent with that appeal, he brought this case, and
sued Fannie Mae for its double-recovery scheme, as well as a host of others who aided it. He
alleged that “Foreclosure Inquest”, not being a product of statute, was a fraud scheme in
violation of the Fair Debt Collections Practices Act. After some years of litigation in multiple
venues, the defendants admitted to the salient facts: that “Foreclosure Inquest” is not a
statutory process, and that Fannie Mae is in fact the secret owner of the mortgage. The case
was dismissed, and affirmed on appeal. One of the appellees billed for its printing costs.
Dekom disputed the costs, since the printing requirements had been eliminated due to
COVID. He also moved to sanction the taxing litigant. There was no opposition. The court
awarded costs in a reduced amount, without explanation.
Throughout the course of litigation, Dekom discovered that the practice of segregating pro se
and poor litigants is quite common. At both the state and federal levels, judges routinely sub
out large portions of their caseload to clerks and staffers. This is done initially at the clerk’s

4

window, where cases involving pro se and in forma pauperis parties are identified, coded, and
then routed. Those who do not pay court costs or pay attorneys are seen as clogging the
docket, interfering with the substantive work of the courts. Their cases are disposed of as
quickly as possible, instead of adjudicated in accord with the laws of the land. The Nassau
county “Foreclosure Inquest” is the exception only in that they were fool enough to advertise
it. In academic papers this bifurcation is whitewashed with names like the “learned hand”
track for “real” adjudication, and “black box” for those relegated to staffers for disposal. In
EDNY, the practice is known colloquially as “nigging,” which implies the racial slur referring
to the fact that poor litigants are disproportionately minority. The staffer’s “bench memo” is a
secret document; unserved, unpublished, and almost entirely unknown to poor parties. Once
approved, often by its own author, it is then digitally stamped with the judge’s signature as a
decision.
A feature of being segregated out of the statutory judicial process is that the laws and
precedents which protect fee-paid litigants are not applied to the similarly situated poor. The
fact patterns are misstated and corrupted to fit dismissal. The decisions in “black box” cases
are routinely classified as “unpublished” and “not precedential”. In the Third Circuit,
attorneys citing such cases are expressly prohibited from saying “this Court held...” despite the
fact that it is exactly what the court did. As a result, there are commonly two lines of cases in a
Circuit which hold opposite results, depending on the class of the litigant, in violation of the
14th Amendment. This case exemplifies such an impermissible split in the Second Circuit. The
petitioner seeks a writ of certiorari to review the decision of the 2nd Circuit, as it fails on
constitutional grounds, as well as presents an opportunity to settle a Circuit split on the
Rooker-Feldman doctrine’s treatment of fraud.

5

Reasons to grant the petition
The usurpation ofjudicial powers perverts justice
It is an exercise in futility for a member of a class to argue the law, when the courts
systematically deny that class the protections and benefits of the law. In such an event, the
only reason to do so is the moral imperative to exhaust all possibilities. That this disadvantage
is “systematic” is beyond question: no one reviewing this petition denies the existence of
bench memos, that litigants are not permitted to see or rebut them. The website of the 2nd
Circuit* * (see https://www.ca2.uscourts.gov/staff attomevs/staff attorneys offiee.html)
details how the circuit hires lawyers with no experience to digest the cases for the circuit
judges. This insulates judges from the original papers and evidence. Doing so eliminates the
cornerstone systemic check: that the actual evidence is weighed by the actual judge. Those
same facts drawn and colorized by a novice prior to presentation lead to the absurd, as here:
the 2d Cir. decision states that “Foreclosure Inquest” is the proper application of New York’s
CPLR 3215(f) (at p.8). However, the evidence showed defendant Nationstar admitting that its
default was not obtained by CPLR 3215, but by an “alternative method” to the statutory
process. In fact CPLR 3215(e) requires that application for a default judgment is made by
motion. This satisfies Due Process notice. Nationstar filed no motions at all. CPLR 3215(f),
cited in the decision, requires proof of the claim. However no such evidence was served on
Dekom, nor was any certified by the County Clerk as a record in the proceeding. The 2d. Cir.
Decision also falsely states that Dekom’s allegations regarding the “Foreclosure Inquest”
process are “conclusory and lack a basis in pleaded fact or law.” However, the novelty of
“Foreclosure Inquest” was extensively documented. It had been published in the Freddie Mac
guidelines as an “alternative” to the foreclosure process, and lauded for its innovation in the
statewide journal of court administration. Nor did the defendants deny its existence, also

6

describing it as an alternative to statute. The only problem is that an “alternative” to the
statutory process which bypasses requirements laid down by the legislature is not, by
definition, “legal.” Such proceedings are derisively known as “star chamber.” The 2d Cir.
decision falsely states that Dekom “did not respond to the (BOA) summons”, despite that all
sides acknowledge that he moved to dismiss, and said motion went unopposed. The decision
also falsely states that he had a “full and fair” opportunity to litigate, including crossexamination. The transcript in evidence shows he was prohibited from questioning standing
and other fatal topics. It also shows evidence was given to the court ex parte, nor was Dekom
permitted to see it. In fact, it was first introduced as a court record by the plaintiff during the
appeal, altering the record without a motion.
The decision’s perversion ofjustice is not limited to facts, but also the law, ignoring wellsettled protections and equitable doctrines. For instance, it conflates a default judgment with
“on the merits” to give it preclusive effect. Numerous and uniform cited Supreme Court
decisions hold otherwise, that “default” is not on the merits, and is not preclusive. The
decision denies the CPPA claim (a D.C. statute) because Dekom was not in D.C., ignoring the
fact that he brought the case in the District of Columbia, against a D. C. resident (Fannie Mae)
subject to its “Little FTC” laws. The 2nd Circuit reasoning would immunize a wrongdoer from
its own state laws, as long as it screwed aliens- a facial brooking of the 14th Amendment.
Further, equitable tolling, lately reaffirmed by this Court in Rotkiske v. Klemm, 589 U.S.__
(2019), was ignored to fabricate a statute of limitations defense against the FDCPA claims.
This is particularly galling as Dekom particularized violations that were concurrent with his
federal suit seeking to enjoin their ongoing use and effect. That effect continues to this day as
the judgment of the “Foreclosure Inquest” remains unexecuted.

7

The 2d Cir. decision also ignored that the federal fraud statute of limitation is seven years,
putting all of the hundred-plus detailed violations within its ambit. Likewise, the 2d Cir.
decision rejected the principle, also well settled and uniform in precedent, that a decision of a
fraudulent court, as with any lacking jurisdiction, has no force.
In correction of both the factual record and the application of longstanding doctrines,
petitioner reiterates by reference, verbatim, the arguments he presented to the Second Circuit.
For these reasons the petition for a writ of certiorari should be granted.
The Rooker-Feldman doctrine is not a “Get Out of Fraud Free” card
when the topic is the Rooker-Feldman doctrine, the phrase “fraud exception” is a dever term
of art which gives the impression that the doctrine is a broad and cornerstone piece of law, of
which there is only a keyhole-sized escape. The Supreme Court described it in contrary terms
in Saudi Basic v. Exxon (2005). In this case, weighing the facts as they He, to wit, that a fake
court can issue a preclusive decision, the Second Circuit judgment has sent the message that
even the most fraudy of frauds is well-guarded by Rooker-Feldman. Other Circuits agree,
including the 5th, 7th, 10th, and 11*. However, the 6th and 9th Circuits correctly recognize that
fraud, by its improper nature, cannot coexist with a just judgment Aside from either
argument, there is the plain fact that an unwritten equitable doctrine does not trump the
black letter of statute. Indeed it is newly invented, as neither case from which it draws its
name is yet a hundred years old (Rooker, 1923; Feldman, 1983). The full faith and credit
clause does not erase the preemption of federal consumer protection statutes, such as the
FDCPA, and fraud, as claimed here. While Congress penned express conflict preemption in
the FDCPA, the absence of such a clause for fraud does not create one. By itself, federal fraud
is organically preemptive, until Congress, and only Congress, says otherwise (cf, Buckman Co.
v. Plaintiffs Legal Comm., 531 U.S. 341 (2001). Thus the “exception” phrase is a misnomer, as

8

f*rnv(

s *4 «ooj Jiinil 1o

bo. i) fmbvfrodj tab Lnrni^r o«Jt. jioimvb ii3 hs *riT

.Ti") bs jrtT 'SUtfrjJiJ Jibniii ~Ji mrff .v <moik>ior7 bolistefc fci/Sq-fcr_nimitrf orft to ft* galUoq
*.lo noivknb h Jr>dt Jnybwiq rri rmobmr bn*> bobloa Haw oali .‘dqum tq ^ill
*

.aoiol on esd J1fob')ibc.riut3nbbfii yri« dir//
.coohJoob gnibni.£q>no£

noiehob
.Jiijuj inolubyrni

nuHi/dfqqa *>dJ bnc* bia&rt bolid sdl xftocl *t> mnb ju\.j ul

,JioviirJ biurc&orii oj bojnrftinq *,d a/mwfl!»~iL orfi jn&idw 'O^n^vA/s vjS <rfiru»Jr/* fuialjfoq
.boln^ad

nr unft/.»V> inv/ ghA aoftboq orb rxrociv.,i iesufJmH

Inna n$D'vl biiinTlo friO foO* n Jon «i ;>rrfrt>ob fUHnbte'I-'rodon.Jl arlT
rmdl'fy'nb r *d "nmJqj'uci burni* ozindq o/fj .ofihtoob nx*mf)bH-i3>too>I sdl?r oiqol odJ adrfv/
V* vwr*I to wiq artol^jyfnov bnn btrnid n A ioni-xdj sril tcrii oaft^nqmi >th zsvljj ifcidw tie lu
wmaj 'naiirmn n> St bodiT>f"s6

y*i> nqirf? -jiff .aqjvw'j imh*slnd^ k /bio «j yi idl rbrdv/

c tsrb ,lr//w1/jil >$di ?c trtiti orb ^rud^-L/// ,o££j stdl crl .(£uos) aox/LT . / -jUlH tbacSni
Jr.dJ &»ji2?vfn yrft Jp^n rad jn^rn^bif^lirrTiiO bnaro2 orii ^nov-bdb tvr&fb-nq t &ya%i nr»o Jwo*>
&Jir**>iK} isdJO .ncrabM- 10*00# ;d bobifing-lfov; u ?bnr.ll to /bund Jzoot orb asr/9
lsdt OsrngojvT rbounro

T,p brO, 0 orb ,10/u//oH . 'u bnc, 4'Oi V, ‘g „dj ^mb obni

*i>dli9 rrurii tJifeA J/iaingbur vstti r\ Mw J*br«xu Jonnea 3*uri2fl laqcnqmi >Jl yd (burnt
>rfJ qaunt ton eaob oahjoob &fd£bu;io m*JiiT//an ita itdl tosl niRlq ^di <J oiorfl ()nonrq^£
4

tfi« wcib Jr rbrdw moil asm isibbn m Jy/irryvni <iw9fl at ii boobnT .tdu1r.t< 1o n->bj! )lo;iId
iiboTvbnn rfjiift Ifbt orTC (gBpr .oamb^ol ;££pr ^otIopJs) blo^ix, /{ L/nbmid u Jo^^rojnjsn
triJ so dotn- ,39itrtRjfc aortojfotq toonrr^«u limliol V? aobqmooiq sdj ^v.\ Jon ?ooh , ».nsb
ni no'dHnwrq todtno>

baunoq *>a- i^iroJ oHriV/ .513d borui ih

bu nt bru> .AMOG’I

brnnl iM Jbcl.Hoftli 0 ,oro oteo*u lor ? ob botni *td o^tnib ^ fbtia^o -fDnoadr; oriJ fASOCTd oib
.oO powA'Aifi. «>j) oabnodlp k\(fai

o bn.? .rg/r&ncO lrtan .o/uqm jonq vfIiK>idfi^zq zi

Rfl .Tjxriomiim a A 9^M<^c}~noi)q:m9•, »rfl ^.urff boos)

H

Z.U i£g

^Uaot^ .*i

a “fraud exception” would only exist if Congress created a safe harbor permitting fraud in the
context of court proceedings. There is no such language in the United States Code. Federal
fraud prohibitions apply with equal force to them as with doctors, charlatans, and con men;
they apply in court and outside of court. The 2nd Circuit decision cannot stand as a bulwark to
the fraudulent “Foreclosure Inquest”, or any other fugazyprocess. For the reasons above, the
petition for a writ of certiorari should be granted.
Fabricated costs cannot be assigned to a losing party after the fact
The denial of petitioner’s appeal also provided for taxing of costs. Defendant law firm
Berkman Henoch (BHPP) billed for its printing costs. Not only did it exceed the rates
permitted by Local Rule, but in fact there were no allowable printing costs, as the Court had
eliminated the printing requirement as a COVID measure. The mandate was issued on March
4,2021, without any taxation. Dekom objected to the costs, arguing that the amount due was
zero, and that the mandate, having been issued, foreclosed the issue. Petitioner also moved to
sanction BHPP for the false representation of actual and permissible costs. BHPP did not
oppose either the disputed costs or the sanction. The Court ignored the motion to sanction
and taxed costs of $1209 on April 21,2021. This is impermissible as the issuance of the
mandate gives finality to the Court’s direction, and it lacked the power to tax after the fact.
Further, the Court’s power to tax is only as an arbiter, not advocate. It cannot volunteer costs
nor reject admissions of fact which reduce costs. It is well settled that a motion without
opposition is deemed admitted for the purpose of the relief requested, Ingaseosas Inti Co. v.
Aconcagua Investing Ltd.., 479 F. App'x 955 (11th Cir. 2012) ("[C]ounsel, by its silence,
implicitly agreed to entry of the stay."), see also Black's Law Dictionary (9th ed. 2009), "he
who is silent is taken to agree." The Court should not do a party’s light work or heavy lifting; it
is a passive instrument, U.S. v Sineneng-Smith, 590 U.S. _(202o). It should not compel a

9

party to attack or defend, or supplant a party’s argument with an alternative one, id. Having
admitted to the allegation that there were in fact no required costs, BHPP should have
consequently been awarded nothing. That the Court ignored the motion to punish for the
misrepresentation shows that it has a favored class and a disfavored one, as petitioner has
alleged. The District Court is not empowered to modify this award; only this Court can review.
For the reasons stated, this Court should grant the writ petitioned for.
Hie Second Amendment Is the last lawful defense of natural rights
There’s a bumper sticker/meme/T-shirt which says, “The 2nd Amendment Ain’t About Huntin’
Deer!” The same sentiment is expressed with greater seriousness by the Black Lives Matter
movement slogan, “No justice, no peace.” Both reflect a principle of self-defense that violence
is an acceptable remedy for tyranny. If an elderly Jewish woman publicly admitted that in
1938 she shot a Nazi clerk in the face and fled Germany, no authority would seek- or permither extradition. The clerk would be recognized as an agent of tyranny, even though its
smallest cog. Indeed, Nazi fascism may be a different scale of evil than “Foreclosure Inquest”
or EDNTs “nigging” practice, but those invite a closer comparison: how would a crowd react if
a black man admitted that in 1965, he shot an Alabama sheriff enforcing segregation? There is
no canon of law, Circuit split, or modern guideline as to how much tyranny should be
tolerated. Courts generally routinely denying justice to a class of people, disproportionately
minority, and doing so in secret, is an intolerably long train of usurpations and abuses. The
fact that it is being normalized, even lauded, is a Marie Antoinette-level of political tone
deafness which invites mass exercise of Second Amendment rights. For this reason this Court
should grant the writ.

10

Conclusion
The questions presented read like An Idiot’s Guide to Law. Can some inexperienced
twentysomething don the robes of a federal judge? What a horrible idea. Can lawyers be given
a safe space to lie their asses off? How about...no. Can a judge play goalie for a party too lazy
to defend? Of course not. Can a branch of government be hostile to natural rights? Not
without fomenting further hostility (see “Riots, 2020”). For these reasons and the for sake of
the Republic, this Court should grant the petition for a writ, for the express purpose of
returning law to the law, as described.

I, Martin Dekom, petitioner, state true under penalty of perjury.
Respectfully submitted.
Martin Dekom, petitioner
9050 Sunset Dr
Navarre, FL 32566
516 850-2717 Martin.dekom@gmail.com

2 June 2021

Certificate of Service:
I hereby certify that on June 2,2021,1 served the foregoing document on all parties by electronically filing it
through the PACER/ECF system, in compliance with Fed. R. Civ. P. 5.

Certified Wordcount: 2924

11

